                                                           NATIONAL SCIENCE FOUNDATION 

                                                            OFFICE OF INSPECTOR GENERAL 

                                                              OFFICE OF INVESTIGATIONS 


                                                     CLOSEOUT MEMORANDUM

          Case Number: A09020007                                                                      Page 1 of 1



                         OIG conducted an inquiry into an allegation that the Subject l submitted an NSF proposal
                  containing copied text During the inquiry we identified copied material in three NSF proposals. The
                  Subject's response to our inquiry did not dispel the allegation, and we referred the matter to the
                  Subject's institution for investigation.

                         The University concluded, based on a preponderance of the evidence, that the Subject
                  recklessly committed plagiarism, deemed a significant departure from accepted practices, and
                  took actions to protect the University's interests:. '

                        We. concurred with the University's assessment and adopted its findings in lieu ofconducting
                  our own investigation. We recommended actions to be taken to protect the federal interest and the
                  Deputy Director concurred with our recommendations.

                          This memo, the attached Report ofInvestigation, and the Deputy Director's letter constitute
                  the case closeout Accordingly, this case is closed.



,   .




I





        NSF OIG Form 2 (11/02)
                                                                                        CONFIDENTIAL
CONFIDENTIAL




      National Science Foundation 

        Office of Inspector General 





                        Confidential 

                   Report of Investigation 

                  Case Number A09020007 

                                17 August 2010 




  This Confidential Report of Investigation is theptOperty of the NSF OIG and may be disclosed outside 

      NSF only by OIG under the Freedom ofInformation and Privacy Acts,S USc. §§ 552, 552a. 


                                                                                   NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                        CONFIDENTIAL



                                      Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified 18 sources from which approximately 191 lines, 5 figures and
                captions, and 27 embedded references were apparently copied into 3 declined
                NSF proposals. OIG referred investigation of the matter to the Subject's
                University.

University
Investigation
and Action:     The University concluded, based on a preponderance of the evidence, that the
                Subject recklessly committed plagiarism, deemed a significant departure from
                accepted practices.
                The University placed a letter ofreprimand in the Subject's personnel file, and
                authorized his department chair to reviewthe Subject's proposals for 5 years.
OIG
Assessment:
                • 	 The Act: The Subject plagiarized 216 lines, 6 figures and captions, and 30
                     . embedded references, from 19 sources into 3 NSF proposals.
                •    	 Intent: The Subject acted recklessly.
                •    	 Standard of Proof: A preponderance of evidence supports the conclusion
                       that the Subject committed plagiarism.
                •    	 Significant Departure: The Subject's plagiarism represents a significant
                       departure from accepted practices.
                •    	 Pattern:  Three NSF proposals and 1 non-NSF proposal submitted by the
                       Subject contain plagiarism.
OIG
Recommends:
                •	    Make a finding of research misconduct against the Subject.
                •	    Send the Subject a letter of reprimand.
                •	    Require certifications from the Subject for a period of 3 years.
                •     Require assurances from the Subject for a period of 3 years.
                •     Require certification of attending an ethics class within 1 year.
CONFIDENTIAL                                                                          CONFIDENTIAL



                                          OIG's Inquiry
                                                                    1
        OIG conducted an inquiry into an allegation that the Subject submitted an NSF proposal
(Proposal 12) containing copied text. Our initial analysis found approximately 139 lines, 5
                                                                                    3
figures and captions, and 14 embedded references allegedly copied from 10 sources.

        OIG contacted the Subject about the allegation. 4 In his response,s the Subject, a non­
native English speaker,6 said he was not aware quotation marks were necessary and citations
alone were insufficient when using copied text: "I thought if! cite them, there is no misconduct
in writing.,,7 He said that before submitting his proposal, he contacted a co-authorS of a
hardware description,9 who gave him permission to "use the design ..., with citations, they
developed as long as [the Subject was] in the academia."IO He said he gave "full crt1dit to the
main inventor of the [technology] ... by indicating his name explicitly."l) The Subject provided
documents containing text he deemed significantly similar to text OIG annotated in the other
alleged sources. Overall, the Subject took responsibility for the lack of citation and
appropriation of figures, noting: " ... I was also very fortunate to know it now before permitting
future mistakes.,,12

         OIG reviewed the Subject's response and concluded the documents he provided did not
support his assertion that portions ofthe annotated text are used in the public domain without
attribution. Specifically, the Subject provided materials containing lines not similar to the text in
the proposal; the materials he provided only contained some similar terminology, but did not
correspond to multi-word lines of text duplicated in his proposal. He also could not provide
documentary evidence to support his assertion that he was authorized to use portions of the
annotated text without attribution. 13

       OIG subsequently examined two other proposals by the Subject and identified additional
copied text. Proposal 214 contained 27 lines and 11 embedded references allegedly copied from




  Tab 2: Sources A-J.
4 Tab 3.
sTab 4.
6 The SUbject is a native o~He received his undergraduate and master's degrees i n _
7          1.

                                              (Sources 01-019, 01-02, H).




                                                  2

                                                                                             CONFIDENTIAL
CONFIDENTIAL


5 sources; and Proposal 315 contained 25 lines and 2 embedded .referen~es allegedly copied from
4 sources. 16 The following chart summarizes the allegedly copied text In each proposal:

              Source         Proposal 1                     Proposal 2                    Proposal 3
                             (Declined)                     (Declined)                    (Declined)
      A (webpage)                         7 lines
      B (article)                       3.5 lines
      C (article)                          5 lines
                                         49 lines
                          2 figures and captions
      D (article)        9 embedded references
      E (article)                        12 lines
                                       , 52 lines
                          2 figures and captions
 !    F (article)        5 embedded references
                                           3 lines
      G    (article)        1 figure and caption
  i   H    (webpage)                       2 lines
      I   (article)                      1.5 lines                                                             i

      J   (article)                        4 lines
                                                                        9.5 lines
      K (article)                                           1 embedded reference
                                                                          6 lines
      L (article)                                           1 embedded reference
                                                                        3.5 lines
      M (article)                                          9 embedded references
      N (article)                                                         4 lines
      o (article)                                                       4 lines l ?                   4 lines
                                                                                                      7 lines
      P (article)                                                                      2 embedded references
  !   Q (article)                                                                                     6 lines •
  i   R (article) .                                                                                   8 lines
                       139 lines
      Total            5 figures and captions                          ' 27 Jines                   25 Jines
                       14 embedded references            11 embedded references       2 embedded references

.Based on the extent of allegedly plagiarized material, we concluded there was sufficient evidence
to proceed with an investigation.


                                       University Investigation

        Consistent with our policy, we referred the matter to the Universityl8 and informed the
Subject we had done SO,19 The University, consistent with its policies,20 conducted an
investigation and produced an Investigation Report (Report) with attachments. 21




                                                     is used in more than one examined proposal.



                                                     3
CONFIDENTIAL                                                                                 CONFIDENTIAL




       The Committee determined, based on a preponderance of the evidence that the Subject
"did commit plagiarism.,,22 It found the material we identified as Sources D and F each
"accounting for approximately two pages of the proposal/,23 and wrote:

                     Near verbatim reproduction of original text resul~ing from a
                     change of one or two words or verb tenses does not relieve [the
                     Subject] from his responsibility to give appropriate credit to the
                     original authors.z 4                         ­


Regarding Proposals 2 and 3, the Committee characterized "the plagiarism ... as significant,
though its extent is markedly less than that seen in [Proposal 1] .,,25 The Committee, however,
observed that the plagiarized material constituted the scientific background and "In no case did
the plagiarism extend to [the Subject]'s original proposed research program, nor did it ever
include experimental data.,,26                                     .

        The Committee concluded the Subject's actions represented a significant departure from
accepted practices within his University, academic department, and broader research community.
As evidence, the Report included content from the University's faculty handbook and the student
Honor Code, brief information regarding the research ethics training provided to students within
the Subject's academic department, and the guidelines of professional societies27 that produce
journals containing the Subject's publications.28 Of note, one journal article the Committee
identified within the Subject's field even detailed

                     the retraction of a published article on the grounds that its authors
                     had duplicated figures published by previous authors 'without
                     appropriate citation or acknowledgement ... with the result that
                     ... readers could be misled as to the origin ofthe data and the
                     originality ofthe work.,29

The Committee noted "the described actions parallel that of [the Subject]'s use of figures taken
without attribution from four different sources.")O

       Based on its interviews and the Subject's educational history, the Committee found the
Subject acted with reckless intent. 3 ! According to his department chair, the Subject was confused

19 Tab 8.
20 Tab 9.
21 Tab 10.

22 Tab 10, pg I.
23 Tab 10, pg 2-3.
24 Tab 10, pg 2-3.
25 Tab 10, pg 3.
26



28 Tab   10, pg
29 Tab   10, pg 6.
30 Tab   10, pg 6.
31 Tab   10, pg 8.


                                                       4

                                                                                                    CONFIDENTLA.L
CONFIDENTLA.L


about what exactly he had done when he received our initial inquiry letter. However, during an
interview with the Committee, the Subject said that although he now understands he committed
plagiarism, he did not realize he was doing so when he prepared the proposals. Additionally, he
told the Committee he had not received training in research ethics, specifically plagiarism, .
during the seven years spent in the U.S. completing his Ph.D. and serving as a postdoc.32 Lastly,
the Subject explained that he had included the materials without adequate attribution because:

             • 	 He had received verbal permission from one scholar and believed he did not need
                 to provide additional citation;
             • 	 He made clear the difference between his proposed work and others' work by
                 using different verb tenses;
             • 	 He did not claim others' data as his own; and
             • 	 He could not express the backgrourid information in a better manner, since he was
                                                                   33
                 proposing work in an area of research new to him.

The Committee concluded that the Subject "did not know that his actions constituted research
misconduct" and thus "his behavior cannot be classified as knowing.,,34

        To determine pattern, the Committee examined the Subject's Ph.D. dissertation, four
other funding proposals, and four published manuscripts 35 using plagiarism-detection software?6
The Committee's analysis 37 found "no substantive instances of plagiarism,,38 in eight of the
documents. It did, however, find four sentences plagiarized in a non-NSF proposal,39 and an
                                                                                              40
additional 12 sentences and one diagram from one additional source plagiarized in Proposal 1.

         In conclusion, the Committee commended the Subject's subsequent behavior, stating:




                                                                                            as one
            graduate           and postdocs       1, pg 25), the Subject should be familiar with and be able to enforce
this code. Additionally the institutions seemingly did have research misconduct policies in place during the
Subject'S affiliation; nonetheless, we could not conclusively determine that training occurred. According to the
websites, the institutions do currently have research ethics training programs and resources available to students and
faculty clarifYing the definition of plagiarism.
33 Tab 10, pg 7. 

34 Tab 10, pg 8.                                              . .                           

3S See Tab 10, pg 4-5 for bibliographic information for these additional materials.                   .

36 Turnitin. As a control, the Committee used Turnitin to re-examine Proposal] and found it identified the same 

instances of plagiarism our office had identified. 

37 Tab 10, Appendix F. 

38 The. only instances the Committee identified were: "(a) standard funding agency text in the proposal forms, or 

(b) phrases or other sentence fragments describing experimental protocols or similarly non-unique technical
~hrases." (Tab 10, pg 5)
 9 Tab 10, Appendix E.
40 Tab 10, Appendix D.




                                                           5
                                                                                                   CONFIDENTIAL
CONFIDENTIAL


                   [The Subject]'s subsequent behavior (including undertaking an
                   effort to educate his own students on the definition of plagiarism)
                   indicates that he now understands that his actions were not in
                   accord with accepted standards of behavior, that he takes
                   responsibility for those actions, and that he is unlikely to commit
                                                      41
                   similar misconduct in the future.


                                           University Adjudication

      The Universi~'s Provost42 reprimanded the Subject "for violations ofthe research
misconduct policy.,,4 He wrote:

                   Your actions are not acceptable. They violated well-established
                   professional norms for citation of the work of others and the very
                   high standard of ethical conduct we expect of our faculty at [the
                   University]. The expectation is that there will be no repeat
                   violations. This letter of reprimand will be maintained in your
                   personnel file .... Ifwe discover or learn of any new research
                   misconduct violations during the next five years, we will initiate
                   dismissal for cause ....44

The Provost authorized the Subject's department chair to review for the next five years the
                                                     45
Subject's forthcoming grant proposals for plagiarism. He concluded:

                   Based on the report and your cooperation with the investigation, I
                   am confident that you did not intend to commit a violation, nor
                   were you seeking to gain an unfair advantage in your proposal.
                   You made a serious professional error, which I trust that you will
                   not repeat. 46

                                                OIG's Assessment

     The University provided OIa with its Report, and OIa invited the Subject to provide
comment. 47 The Subject chose not to respond.




     Tab 10   8.
42~senior Vice President and Provost.
41


43 Tab 11.
44Tabll,pgl.
45 The Provost did not require the department chair to review these materials, but rather allowed him to use his
discretion whether a review is necessary.
46 Tab II, pg 2.
47 Tab 12.




                                                          6

                                                                                                   CONFIDENTIAL
CONFIDENTIAL


NSF's Research Misconduct regulation states:

                 After receiving a report from an external investigation by an
                 awardee institution or another Federal agency, OIG will assess the
                 accuracy and completeness of the report and whether the
                 investigating entity followed reasonable procedures. It will either
                 recommend adoption of the findings in whole or in part or,
                 normally within 30 days, initiate a new investigation. [48]

We assessed the Report and deemed it to be both accurate and complete. We further concluded
the University followed reasonable procedures in conducting its investigation. Therefore, we
adopted the findings in lieu of conducting our own investigation.

        We re-reviewed Proposal} in light of the Committee's report and concur with its
conclusion that material from one additional source was plagiarized. We re-annotated Proposal 1
                                                                      49
to include materials from this new source document; a journal article. The plagiarized material
in Proposal} now totals: 164 lines, 6 figures and captions, and 17 embedded references.

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 5o

                                                      The Acts

         Our review found the Subject plagiarized 216 lines,s 1 6 figures and captions, and 30
embedded references, from 19 sources into three unfunded proposals. Of that total, 164 lines, 6
'figures and captions, and 17 embedded references were copied into one proposal. OIG concurs
 with the Report that the Subject's actions constitute plagiarism, as described in NSF's definition.
 We further concur that the acts constituted a significant departure from accepted practices. In
 offering an extensive amount of material composed by others as his own, the Subject
 misrepresented his own efforts and presented reviewers with an incorrect measure of his abilities.



         The Report concluded the Subject acted with reckless intent. We concur with its
assessment based on its investigatory review and the Subject's professional background. The
Subject did not contest that he included material from sources; he instead said he was unaware
that citation of that material was necessary. Additionally, a review of his University's policies52
indicated the University included guidance regarding avoiding plagiarism in its Graduate Honor


48 45 C.F.R. §689.9(a). 

49 We annotated in purple the newly-identified plagiarized material in Proposal 1 (Tab I). The Source is located in 

Tab 10, Appendix D. 

50 45 C.F.R. §689.2(c). 

51 Only 4 lines are duplicative across proposals. 

52 See footnote 32. 





                                                          7

                                                                                                    CONFIDENTIAL
CONFIDEN'I1AL


System policy. As a graduate mentor, the Subject had a responsibility to be aware of this and
other relevant policies he was to enforce and himself uphold. Further, all of the Subject's
publications listed on his Biographical Sketches53 are English language publications in English
language journals, suggesting one who should know the conventions for adequate citation.

       OIG finds the Subject's actions are a significant departure from what is expected of a
reasonable person, and concludes, in this case, the Subject acted recklessly in submitting the
proposals containing improperly cited text.


                                                Standard ofProof

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence .

      . OIG concludes that the Subject, by a preponderance ofthe evidence, recklessly
                                                               54
plagiarized, thereby committing an act of research misconduct.


                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                  (I) How serious the misconduct was; (2) The degree to which the
                  misconduct was knowing, intentional, or reckless; (3) Whether it
                  was an isolated event or part of a pattern; (4) Whether it had a
                  significant impact on the research record, research subjects, other
                  researchers, institutions or the public welfare; and (5) Other
                  relevant circumstances. 55

                                                    Seriousness

        The Subject's actions are a violation of the standards of scholarship and the tenets of
general research ethics and those within his research community. First, the extent of the
plagiarism - approximately 216 lines, 6 figures and captions, and 30 embedded references, from
 19 sources into three unfunded proposals, of which 164 lines, 6 figures and captions, and 17
embedded references were located in one proposal - is itself serious. Second, we note the
copied text within the proposal served to misrepresent the Subject's body of knowledge to those
judging the proposals' respective merit. 56



53 Tabs 1,5, and 6 contain the Subject's Biographical Sketches. 

54
   45 C.F.R. part 689. 

5545 C.F.R. § 689.3(b). 

56 In this case, the proposals were declined; thus making it unlikely that reviewers were impacted by the 

misrepresentation that is inherent in including unoriginal material as one's own. 



                                                          8
                                                                                                      CONFIDENTW~
CONFIDENTIAL


                                     Degree to which Action was Reckless

        OIG finds, in this situation, that the Subject acted recklessly. The Subject acknowledged
he copied material into his proposals without attribution, contesting only whether the copied
material required citation. In submitting the proposals, the Subject knew he included text
without adequate attribution. A reasonable person would be expected to know that using
verbatim text without demarcation was not acceptable, and we would ordinarily consider the
Subject's conduct to be knowing. Furthermore, when requesting U.S.-based research funding,
one is responsible for being knowledgeable in and upholding U.S. standards of appropriate
                                                                                        S7
citation. However, we believe the Subject's educational and professional background led to a
lack of nuanced understanding regarding appropriate citation practices, and conclude, in this
instance, that his actions should be characterized as distinctly reckless.

                                                        Pattern

        OIG concludes the current evidence - plagiarism in three proposals and de minimis
plagiarism in a non-NSF proposal supports a finding of pattern within the Subject's actions.


                                                 Recommendation

Based on the evidence, OIG recommends NSF:

             '. 	 send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct;58

              • 	 require the Subject to certify to OIG's Assistant Inspector General for
                  Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                  plagiarized, fabricated, or falsified material for 3 years;59

              • 	 require that the Subject submit assurances by a responsible official of his
                  employer to OIG's AlGI, that proposals or reports submitted by the Subject to
                  NSF do not contain plagiarized, fabricated or falsified material for 3 years;60 and

              • 	 require the Subject to complete an ethics course, .which includes discussion on
                  citation practices, within I year and provide certification of its completion to
                        61
                  01G.

51 We could not conclusively determine whether the U.S. institutions with which the Subject was affiliated had
research ethics training available at the time ofthe Subject's affiliation. However, we did note that the University,
since 2000, issued guidance regarding avoiding plagiarism in its Graduate Honor System policy and that as a
graduate mentor, the Subject had a responsibility to be aware of this and other relevant policies he was to enforce
and himself uphold.
58 A letter of reprimand is a Group I action (45 C.P.R. §689.3(a)(1)(i».
59 Certification by an individual is a final action that is comparable to the final actions listed as Group I actions (45
C.F.R. §689.3(a)(1». 

60 Requirement for assurances is a Group I action (45 C.F .R. §689.3(a)(l )(iii». 

61 Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.P.R. §689.3(a). 





                                                            9
                                 NAnONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON. VIRGINIA 22230



                                           JAN 0 G 2011 


    OFFICE OF THE 

   DEPUTY DIRECTOR 





CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice ofResearch Misconduct Determination


Dear Dr. •




                      As documented in the attached Investigative Report prepared by NSF's
Office of Inspector General ("OIG"), these proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ..." 45 CFR § 689.1 (a)~ NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit" 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that: 	                     '

       (1) 	There be a significant departure from accepted practices of the relevant research
            community; and                                         .
       (2) 	The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                               Page 2
        Your proposals contained verbatim and paraphrased text, figures, and embedded
references, copied from nineteen source documents. By submitting proposals to NSF that copied
the ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
 taken in response to a finding of misconduct. 45 CFR § 689.3(8:). Group I aetions include
.issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
 NSF; requiring that an institution or individual obtain special prior approval of particular
 activities from NSF; and requiring that an institutional representative certify as to the accuracy of
 reports of certifications of compliance with particular requirements. 45 CFR § 689 .3( a) (1 ). .
 Group II actions include award suspension or restrictions on designated activities or
 expenditures; requiring special reviews of requests for funding; and requiring correction to the
 research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
 awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was part of a pattern, and that it
had no impact on the research record, as well as other relevant circumstances. 45 CFR §
689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until January 1, 2014, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;                                   .

       (2) Until January 1, 2014, you must obtain, and provide to the OIG, assurances from a
           responsible official of youi' employer that any proposal or report you submit to NSF as
           a PI or co-PI does not ,contain plagiarized, falsified, or fabricated material; and     .

       (3) By January 1, 2012, you must attend a training course in the proper conduct of
                                                                                                       \




                                                                                             Page 3
           research, which includes a discussion Of citation practices, and provide a certificate of
           attendance to the GIG that you have completed such a course.

       The certifications, assurances, and certificate of attendance should be submitted in writing
to DIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.

Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       Fer yotlf infomtatioft, we me attaehing a eopy of the applieable regulations. If you ha¥e
any questions about the foregoing, please call _            Assistant General Counsel, at (703)
292-8060.                                                           . .



                                                     Sincerely,




                                                     CoraR Marrett
                                                     Acting Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
